Report No. D-2011-094              August 1, 2011




             Internal Controls Over
         U.S. Army Corps of Engineers,
      Civil Works, Disbursement Processes
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:
                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CEFMS             Corps of Engineers Financial Management System
FMR               Financial Management Regulation
GAO               Government Accountability Office
PCS               Permanent Change in Station
PR&C              Purchase Request and Commitment
SOP               Standard Operating Procedures
TDY               Temporary Duty
UFC               USACE Finance Center
USACE             United States Army Corps of Engineers
                                   INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704

                                                                          August 1, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                  FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE ARMY (CIVIL WORKS)
               ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                  MANAGEMENT AND COMPTROLLER)
               COMMANDING GENERAL AND CHIEF OF ENGINEERS, U.S.
                  ARMY CORPS OF ENGINEERS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: U.S. Army Corps of Engineers, Civil Works, Internal Controls Over Disbursement
         Processes (Report No. D-2011-094)

We are providing this report for your information. The DoD Office of Inspector General
performed an audit of the internal controls over U.S. Army Corps of Engineers (USACE), Civil
Works, disbursement processes. Our audit objective was to determine whether USACE, Civil
Works, established adequate internal controls to identify and address improper payments.
Specifically, we determined whether USACE, Civil Works, disbursements were accurate, timely,
and properly paid.

USACE, Civil Works, internal controls for identifying and addressing improper payments were
generally effective. However, USACE, Civil Works, standard operating procedures (SOPs) for
post payment reviews did not always include updated DoD policies. Our review did not identify
any improper payments as a result of this internal control weakness. Therefore, we are not
making any recommendations. We informed USACE, Civil Works, personnel of the need to
update its SOPs. USACE, Civil Works, generally agreed and stated that USACE, Civil Works,
personnel are reviewing the SOPs and will update them as applicable.

ACCURACY AND TIMELINESS OF DISBURSEMENTS

USACE, Civil Works, internal controls included procedures to identify and address improper
payments and ensured that disbursements were accurate and timely. Specifically, the controls
for commercial, Temporary Duty (TDY), Permanent Change in Station (PCS), and credit card
payments were generally effective for ensuring that the disbursements were accurate, timely, and
properly paid. In addition, USACE Finance Center (UFC) performed post payment reviews to
identify improper payments and other control weaknesses in its disbursement processes. We
reviewed source documents including travel authorizations, travel vouchers, purchase request
and commitments (PR&Cs), receiving reports, and invoices for 228 USACE, Civil Works,
FY 2010 disbursement transactions, valued at $5.9 million. We determined that 223 of 228
transactions reviewed were accurate, timely, and properly paid. However, we identified five
transactions that were not paid timely. Table 1 shows the value and results of the disbursements
we reviewed.
  Table 1. FY 2010 USACE, Civil Works, Value and Results of Disbursements Reviewed
                                 Transactions        Transactions            Value of
         Disbursements            Reviewed          Reviewed That          Transactions
                                                    Were Not Paid           Reviewed
                                                       Timely
    Commercial Payments                71                  4                $5,833,185

    TDY/PCS                            49                  0                    39,418

    Credit Cards                      107                  1                    47,839

    Other*                               1                 0                        27

      Total                            228                 5                $5,920,469

    *Reimbursement for an employee’s professional certification.


Commercial Payments. USACE, Civil Works, controls for commercial payments were
generally effective. We reviewed PR&Cs, invoices, and receiving reports for 71 commercial
payments, valued at $5.8 million. We compared amounts paid to invoices to determine whether
the amounts paid were accurate. Additionally, we compared the invoices’ received date to the
invoices’ paid date to determine whether the payments were made in a timely manner. We also
reviewed PR&Cs, receiving reports, and invoices printed from Corps of Engineers Financial
Management System (CEFMS) to determine whether the purposes for the payments were proper.
We did not identify any improper or inaccurate payments for these transactions. However, 4 of
the 71 commercial payments transactions reviewed were not paid timely. The four transactions
were for nominal amounts; therefore, we concluded that commercial payment transactions were
generally accurate, timely, and properly paid.

In addition, UFC performed daily and quarterly post payment reviews of commercial payments.
We assessed results of these post payment reviews and found the review procedures to be
generally effective for identifying internal control weaknesses and improper payments. The
daily post payment reviews were for disbursements made the day before and included the
identification of potential improper payments based on nine reconciliation or edit error types.
The procedures for the quarterly post payment reviews included steps for reviewing pertinent
commercial payments documentation. USACE, Civil Works, reviews identified instances of
“administrative errors.” The administrative errors were categorized as inadequate segregation of
duties or late payments. USACE, Civil Works, considered late payments to be payments that
occurred after the payment due date on the invoices. For example, an invoice stamped as
received on December 7, 2009, had a payment due date of December 8, 2009. The invoice was
paid on December 17, 2009, and USACE, Civil Works, categorized the payment as late because
payment was made after the invoice due date. However, we compared the invoice received date
to the paid date and determined that the payment was made within thirty days after the date on
which the invoice was received, as required by DoD FMR, volume 10, chapter 7, section

                                                2
070205, “Determining the Payment Due Date.” Therefore, we do not consider this or similar
payments late.

TDY and PCS Payments. USACE, Civil Works, controls over TDY and PCS payments were
effective. We reviewed travel authorizations and vouchers or subvouchers for 49 TDY and PCS
transactions valued at $39,418. We compared the TDY and PCS authorizations to travel
vouchers and subvouchers to determine whether the transactions were proper. We compared
vouchers and subvouchers to electronic payment records in CEFMS to determine the accuracy
and timeliness of the amounts paid, and did not identify any discrepancies. Therefore, we
determined that TDY and PCS payments were accurate and timely. In addition, UFC performed
monthly post payment reviews of TDY payments and quarterly post payment reviews of PCS
payments. Although USACE, Civil Works, TDY and PCS post payment review procedures were
effective in identifying improper payments, the standard operating procedures did not always
include updated DoD policies. For example, USACE, Civil Works, procedures for TDY and
PCS reviews did not include updated DoD policy to perform pre-payment reviews of travel
vouchers for more than $2,500 as required by DoD FMR, volume 5, chapter 33, section 3308,
“Random Review of Disbursement Vouchers,” August 2010. We informed USACE, Civil
Works, personnel of the need to update its SOPs. USACE, Civil Works, generally agreed with
the finding on the SOPs and stated that USACE, Civil Works, personnel are reviewing the SOPs
and will update them as applicable.

Credit Card Payments. USACE, Civil Works, controls for credit card purchases and
disbursements were generally effective. We reviewed PR&Cs, invoices, and receiving reports
for 107 credit card purchases, valued at $47,839. We compared transaction amounts paid to
invoices to determine whether the amounts paid were accurate. We reviewed the PR&Cs,
receiving reports, and invoices printed from CEFMS to determine whether the purposes for the
payments were timely and proper. We did not identify any improper or inaccurate payments.
However, we identified 1 of 107 credit card transactions reviewed that was not paid timely.
Therefore, we concluded that credit card disbursement transactions were generally accurate,
timely, and properly paid.

AUDIT STANDARDS

We conducted this audit from December 2010 through July 2011 in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objectives.

SCOPE AND AUDIT METHODOLOGY

We visited and interviewed operating personnel at USACE, Civil Works, Headquarters, UFC,
and the Baltimore and Little Rock District offices. At UFC and the district offices, we obtained
and reviewed standard operating procedures and observed internal control processes.
Specifically, at UFC and the district offices, we observed personnel inputting, approving, and
reviewing disbursement transactions in CEFMS.

                                                3
We obtained a universe of 1,013,376 transactions valued at $9.7 billion in the USACE, Civil
Works, FY 2010 general ledger 1010.21 (Funds Disbursed) account as of September 30, 2010,
for our review after we excluded intra-USACE, Civil Works, and payroll transactions. We
excluded payroll transactions because we previously shared our observations and
recommendations on the internal controls over payroll processing with USACE, Civil Works, as
a result of our audit of the USACE, Civil Works, FY 2010 financial statements. We obtained a
statistical sample of transactions valued at about $5.9 million for our review. Our review of
supporting documentation included travel orders, travel vouchers, purchase requests, receiving
reports, and invoices. We compared:

   •   amounts billed to PR&Cs, invoices, and receiving reports to determine the accuracy of
       the amounts billed,
   •   transaction amounts paid to amounts billed to determine whether the amounts paid were
       accurate, and
   •   invoices received date to the paid date to determine whether the payments were made
       within thirty days after the date on which the invoice was received, as required by DoD
       FMR, volume 10, chapter 7, section 070205, “Determining the Payment Due Date.”

We reviewed purchase requests, receiving reports, and invoices printed from CEFMS to
determine whether the purposes for the payments were proper. Additionally, we reviewed the
disbursement documents to determine whether each transaction was initiated, authorized, and
approved by different individuals to ensure proper segregation of duties.

USE OF TECHNICAL ASSISTANCE

With the assistance of our Quantitative Methods and Analysis Division, we used Simple Random
Sampling design and randomly selected 228 disbursement transactions for review. We
determined the sample size using a “what-if” analysis method and our professional judgment.
We drew sample transactions without replacement from the universe using Statistical Analysis
System programming tools. Table 2 identifies the universe and the value of sample transactions
we reviewed.

              Table 2. Universe and Value of Sample Transactions Reviewed
                                        Value of the                         Value of
                      Universe of        Universe of       Sample            Sample
                     Transactions       Transactions     Transactions      Transactions

   Transactions        1,013,376       $9,729,318,745         228           $5,920,469




                                               4
USE OF COMPUTER-PROCESSED DATA

We used computer-processed data from CEFMS to determine whether USACE, C ivil Works,
di sbursements were accurate, timely, and properl y paid . We tested the accuracy of the data by
rev iewing and comparing the data to source documents such as travel orders, trave l vouchers,
purchase requests, rece iving repOlis, and invo ices. We concluded that CEFMS data were
suffic iently reli ab le for our audit purposes.

PRIOR AUDIT COVERAGE

During th e last five years, the Government Accountability Offi ce (GAO) and the Department of
Defense Offi ce of Inspector General issued several reports di scussing DoD disbursements.
Unrestricted GAO reports can be accessed at http://www.gao .gov . Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/audit reports.

We apprec iate the courtes ies extendecl to the staff. Please direct questions to me at
(703) 601 -5868 (DSN 329- 5868).




                                      Patri cia A. Marsh, CPA
                                     Assistant Inspector General
                               F inancial Management and Reporting




                                                  5
